27

NO:
IN THE '
SUPREME COURT OF THE UNITED STATES

Carline Curry - PETITIONER
VS.
Douglas Mackenzie
PROOF OF SERVICE
I, _Carline Curry_, do swear or declare that on this date
/___________ ,

202$, as required by Supreme Court Rule 291 have served
the enclosed MOTION FOR LEAVE TO PROCEED IN
FORMA PAUPERIS and PETITION FOR A WRIT
OF CERTIORARI on each party to the above proceeding
or that party’s counsel, and On every other person required
to be served, by depositing an envelope containing
the above documents in the United States mail properly
addressed to each of them
and with first-class postage prepaid, or by delivery to a
third-party commercial
carrier for delivery within 3 calendar days.
The names and addresses of those served are as follows:

28

Mr. Douglas Mackenzie, 19 Saucito Ave., Montery,
California 93940, Solicitor General of the United States,
Elizabeth Prelogor, Room 5616, Department of Justice, 950
Pennsylvania Ave., N.W., Washington, DC 205300001,Attorney General Dave Yost,, 30 E. Broad Street; 14
th floor; Columbus, Ohio 43215
Executed on

(Signature)

i

,20^

